TCU VISA Platinum Rewards Credit Card Account Agreement
This TCU VISA Platinum Rewards Credit Card Account Agreement and Disclosure Statement ("Agreement"), sets forth your rights
and obligations and ours under your Teachers Credit Union Platinum Credit Card Account ("Account"). Please read it carefully and
retain it for future reference; it contains the terms that will govern your Account. In this Agreement, the applicant, co-applicant, and
any other person you authorize to use the account will be referred to as "you", "your", and "yours". There are two parts to this TCU
Visa Platinum Rewards Credit Card Agreement: TCU Visa Platinum Rewards Credit Card Account and the TCU Visa Platinum
Rewards Credit Card Account Agreement. The TCU Visa Platinum Rewards Credit Card Account shows a range of terms that
includes both mail and online offers for new accounts available under this Agreement as of October 1, 2018. The combination of
terms that could apply to you will differ depending on the specific card offer and on your creditworthiness at the time of application.
Not all offers will contain introductory rates. The TCU Visa Platinum Rewards Credit Card Agreement contains important
information related to consumer credit cards issued by TCU. Teachers Credit Union, or its agents, authorized representatives,
successors or assignees, will be referred to as "we", "our", and "us". This Agreement becomes binding at the time you apply for the
Account, use the Account, accept or sign a credit card issued on the Account, whichever event occurs first, not upon signatures to the
application or agreement.
Promise to Pay: You promise to pay us, or our assigns, or to our order (in lawful money of the United States of America) the total
amount of all transactions that you make on your Account. You also promise to pay the total amount of all transactions that others
make on your Account with your permission, even if the amount transacted exceeds that which you had authorized. In addition, you
promise to pay all other finance charges or interest, expenses, fees, or other fees that may be added from time to time, as provided
for in this Agreement that become due on your Account.
Credit Limit: The credit limit for your Account will appear on your billing statement. You promise that you and others using your
Account will not make transactions on your Account in an amount that exceeds your credit limit. You also promise to pay us the
amount of any transactions on your account in excess of your credit limit, including interest, as we may require. Except as may be
limited by applicable law, we, in our sole discretion, may increase or decrease your credit limit by any amount. We also may refuse to
extend additional credit for any transaction if you have reached your credit limit or if you are in default (as defined below).
Minimum Monthly Payment: Each month, by the 28th day of the month (“Payment Due Date”) you must pay us at least the ("Minimum
Monthly Payment") shown on your Account Statement for the Billing Cycle. The Minimum Monthly Payment will be equal to the
following:





2% of your New Balance, or $25.00, whichever is greater; plus, any amount Past Due
Rounding. The Minimum Monthly Payment will be rounded up to the highest $1.00
Payment of balance. If your Loan Account Balance at the end of a Billing Cycle is less than $25.00, your Minimum Payment
will be equal to the entire outstanding Loan Account Balance.
You may pay off all or part of what you owe at any time. If you pay more than the Minimum Payment amount, you must
continue to make your periodic minimum payments as otherwise required by this Credit Card Agreement.

Unless otherwise agreed or required by applicable law, your payments may be applied to what you owe us in any manner we choose.
However, in every case, in the event you make a payment in excess of the required Minimum Monthly Payment, we will allocate the
excess amount first to the balance with the highest annual percentage rate and any remaining portion to the other balances in
descending order based on the applicable annual percentage rates.
Recurring payments: Visa has mandated that if you choose to store your account information with any third parties, we may also
share updates to this information with these third parties. Please note that this only applies to third parties with whom you elect to
share this information. You may opt out of this, however, if you chose to do so, it will be for ALL recurring transactions, not just one.
Advances: There are three types of transactions that you can make on your Account: Purchases, Balance Transfers or Cash
Advances. You make a Purchase when you use your credit card to buy goods or services, these transactions will be posted to the
Purchase segment of your Account Statement. You make a Balance Transfer when you transfer a balance on another credit card to
this Account. Balance Transfers will be posted in the Purchase Transaction segment of your Account Statement unless shown
separately. Balance Transfers to another Teachers Credit Union loan account, including THE Card Home Equity Loan, are not
permitted on the TCU Platinum Reward card. You make a Cash Advance Transaction when you use your credit card to obtain cash
or cash equivalents. Cash equivalents include: ATM transactions, wire transfers, travelers’ checks, money orders, foreign currency,
lottery tickets, gaming chips and wagers. Cash Advances are posted to the Cash Advance Segment of your Account statement. You
agree that we may charge your credit card Account for the amount of each transaction made on your Account. This paragraph shall
not be interpreted as permitting or authorizing any transaction that is illegal.
Billing Cycle: The term “Billing Cycle” means the interval between the days or dates of the regular Account Statements, which may
vary in length, but is approximately 30 days. The specific period of time is described on each Account Statement. However, you will
have a Billing Cycle even if a Statement is not required. We will often specify a Billing Cycle by the month in which its closing date
occurs as provided on the Statement. For example, a “March Billing cycle” will have a closing date in March. We may also refer to a
Billing Cycle as the “Billing Period.” If your Account balance has charged off, we may switch to quarterly Billing Cycles to your Account.
Interest (Finance) Charges
Interest (Finance) Charge Calculation Method for Credit Purchases. The interest (finance) charges on merchant or credit
purchase transactions (“Purchase Transactions”) begin to accrue on the transaction date. The interest (finance) charges for a Billing
Cycle are computed by applying the daily periodic rate to the average daily balance (for Purchase Transactions) multiplied by the
number of days in the Billing Cycle. The average daily balance is determined by dividing the sum of the daily balances during the
Billing Cycle, by the number of days in the Billing Cycle. To get the daily balance we start with the beginning balance of your Account
each day (for Purchase Transactions) to which we add all new purchases and any other debits and subtract the amount of payments
and credits to your Account. Then we total the daily balances (for Purchase Transactions) for each day of the Billing Cycle and divide
the result by the number of days in the Billing Cycle. This gives us the Average Daily Balance of your Account (for Purchase
Transactions) for the Billing Cycle.
Variable Annual Percentage Rate (APR) for Credit Purchases. We will charge Interest Charges and Fees to your Account as
disclosed on your Statement and other Disclosures. In general, Interest Charges begin to accrue from the day a transaction occurs.
However, we will not charge you interest on any new transactions posted to the purchase Segment of your Account if you paid the
total balance across all Segments of your Account in full by the due date on your Statement each month. From time to time, we may
give you offers that allow you to pay less than the total balance and avoid Interest Charges on new purchase Segment transactions.
If we do, we will provide details in the specific offer.
We will generally treat Fees as purchase transactions unless otherwise specified below. These Fees apply to your Account only if
your Interest Rate and Interest Charge Disclosures provide for them. We may increase your Interest Charges and Fees as described
in the Fees and Charges section of this agreement.

Interest (Finance) Charges Calculation Method for Balance Transfers. The interest (finance) charges on Balance Transfer
Transactions (“Balance Transfer Transactions”) begin to accrue on the transaction date. The interest (finance) charges for a Billing
Cycle are computed by applying the daily periodic rate to the average daily balance (for Balance Transfer Transactions) multiplied by
the number of days in the Billing Cycle. The average daily balance is determined by dividing the sum of the daily balances during the
Billing Cycle, by the number of days in the Billing Cycle. To get the daily balance we start with the beginning balance of your Account
each day (for Balance Transfer Transactions) to which we add all new Balance Transfer Transactions and any other debits and
subtract the amount of payments and credits to your Account. Then we total the daily balances, (for Balance Transfer Transactions)
for each day of the Billing Cycle and divide the result by the number of days in the Billing Cycle. This gives us the Average Daily
Balance of your Account (for Balance Transfer transactions) for the Billing Cycle.
Variable APR for Balance Transfers. We will charge Interest Charges and Fees to your Account as disclosed on your Statement
and other Disclosures. In general, Interest Charges begin to accrue from the day a transaction occurs. However, we will not charge
you interest on any new transactions posted to the purchase Segment of your Account if you paid the total balance across all Segments
of your Account in full by the due date on your Statement each month. From time to time, we may give you offers that allow you to
pay less than the total balance and avoid Interest Charges on new purchase Segment transactions. If we do, we will provide details
in the specific offer.
We will generally treat Fees as purchase transactions unless otherwise specified below. These Fees apply to your Account only if
your Interest Rate and Interest Charge Disclosures provide for them. We may increase your Interest Charges and Fees as described
in the Fees and Charges section of this agreement.
Interest (Finance) Charges for Cash Advances. The interest (finance) charges on Cash Advance Transactions begin to accrue on
the date you obtain the Cash Advance or the first day of the Billing Cycle in which it is posted to your Account, whichever is later. The
interest (finance) charges for a Billing Cycle are computed by applying the daily periodic rate to the average daily balance (for Cash
Advance Transactions) multiplied by the number of days in the Billing Cycle. The average daily balance is determined by dividing the
sum of the daily balances during the Billing Cycle, by the number of days in the Billing Cycle. To get the daily balance we start with
the beginning balance of your Account each day (for Cash Advance transactions) to which we add all new Cash Advance transactions
and any other debits and subtract the amount of payments and credits to your Account. Then we total the daily balances (for Cash
Advance transactions) for each day of the Billing Cycle and divide the result by the number of days in the Billing Cycle. This gives us
the Average Daily Balance of your Account (for Cash Advance transactions) for the Billing Cycle.
Variable APR for Cash Advances. We will charge Interest Charges and Fees to your Account as disclosed on your Statement and
other Disclosures. In general, Interest Charges begin to accrue from the day a transaction occurs. However, we will not charge you
interest on any new transactions posted to the purchase Segment of your Account if you paid the total balance across all Segments
of your Account in full by the due date on your Statement each month. From time to time, we may give you offers that allow you to
pay less than the total balance and avoid Interest Charges on new purchase Segment transactions. If we do, we will provide details
in the specific offer.
We will generally treat Fees as purchase transactions unless otherwise specified below. These Fees apply to your Account only if
your Interest Rate and Interest Charge Disclosures provide for them. We may increase your Interest Charges and Fees as described
in the Fees and Charges section of this agreement.
Minimum Interest (Finance) Charge. If you are charged interest (finance charges), the charge will be no less than $.50.
How to Avoid Paying Interest (Finance) Charges on New Purchase Transactions. You can avoid Finance Charges on new
purchases by paying the full amount of the entire balance owed each month within 25 days of your statement closing. This is called
a grace period on new purchases. Otherwise, the new balance of purchase, and subsequent purchases from the date they are
posted to your account, will be subject to a Finance Charge. There’s no grace period on balance transfers and cash advances.
Cash advances and balance transfers are always subject to a Finance Charge from the date they are posted to your account.
Variable Rate Index. The annual percentage rate may change and will be based on the value of an index plus a margin. The index
is the Prime Rate published in the Money rates column of the Wall Street Journal, as published on the fifth day of the month prior to
the change dates. If the Journal is not published on that day, then see the immediately preceding (“Index”). The change dates will
occur quarterly on the 1st day of January, April, July and October billing periods (“Change Dates”).
Rate Changes. The annual percentage rate may increase if the Index rate increases. An Index rate increase will result in a higher
interest charge and it may have the effect of increasing the amount of time required to repay the outstanding balance. An Index rate
decrease will result in a lower interest rate charge and it may have the effect of decreasing the amount of time required to repay the
outstanding balance. The annual percentage rate can increase or decrease on the Change Dates. An Index rate increase or decrease
will take effect on the first day of the billing cycle. If the Index rate changes more frequently that the annual percentage rate, we will
use the Index rate in effect on the day we adjust the annual percentage rate to determine the new annual percentage rate. In such a
case, we will ignore any changes in the Index rate that occur between annual percentage rate adjustments.
Rate Change Limitations. Any percentage rate changes are subject to the following limitations: during the term of this Account the
maximum interest rate is the lesser of 21%, or the maximum annual percentage rate allowed by applicable law.
Fees and Charges
Late Charge: You will pay a $19.00 late charge if we do not receive your Minimum Monthly Payment within 10 days after the Payment
Due Date shown on your billing statement. This fee may change pursuant to Indiana Code 24-4.5-1-106 and 24-4.5-3-203.5. For
Michigan residents the fee is the greater of $15.00 or 5% of the minimum payment.
Returned Check Charge: We may charge you $25.00, each time your payment, check, draft, or similar item is returned for any
reason, by your bank or financial institution for nonpayment.
Convenience Fees: At your request, we may pass along convenience charges, such as; expedited mailing of your credit card or
balance transfer checks up to $26.00
Stop payment fees: We may charge you $18.00 for a stop payment placed on a balance transfer check initiated by you, or a stop
payment on a convenience check written by you.
Balance Transfer fees: We will charge you $5 or 5% per transaction, whichever is greater. The fee will be charge to your credit card
account.

Credit Insurance – Payment Protection Plan
Credit Insurance - Payment Protection Plan. Payment Protection plans from Central States Indemnity Co of Omaha. Open
enrollment for this product is marketed to you upon the opening of your account and again every April and October.
For more information, Central States Indemnity can be reached at P.O. Box 34888, Omaha NE 68134 or 1-800-445-6500

Other Terms and Conditions:
You may be eligible to add your TCU Visa® Platinum Credit Card to Apple Pay™, Google Pay™, and Samsung Pay™.
Apple Pay™, Google Pay™, and Samsung Pay™ allows you to conveniently make purchases with your device wherever Visa®
contactless payments are accepted.
Please Note: In your Apple Pay™, Google Pay™, and Samsung Pay™ account, you will see a unique device account number listed
under your TCU Visa®. This number improves security because it’s only used with your device. Use this number whenever an Apple
Pay™, Google Pay™, and Samsung Pay™ merchant asks for the last 4 digits of your card number. Pay with Apple Pay™, Google
Pay™, and Samsung Pay™ at participating merchants displaying the Apple® or Apple Pay™, Google Pay™, and Samsung Pay™
symbols.
Additionally, Apple Pay™, Google Pay™, and Samsung Pay™ can be used with participating merchants displaying the Apple Pay™,
Google Pay™ and Samsung Pay™ button when you’re shopping with an app.
Apple Pay™ purchases you make with this card will be marked as “AplPay” on your statements.
Google Pay™ purchases you make with this card will be marked as “API” on your statements.
Samsung Pay™ purchases you make with this card will be marked as “Samsung Pay” on your statements.
Please note that you may need to accept additional terms and conditions before accepting and using Apple Pay™, Google Pay™,
and Samsung Pay™.
The storage and usage of your TCU Visa® Platinum card or TCU Platinum Rewards card information (credentials corresponding to
your TCU Visa® Platinum card or TCU Platinum Rewards card account number) in this digital wallet are subject to the TCU Visa®
Platinum card or TCU Visa® Platinum Rewards card Terms and Conditions, as amended from time to time. Please contact Teachers
Credit Union Member Call Center at 1-800-552-4745 for additional information.
You may sign up for alerts on your mobile devices to get an alert when certain transactions are processed, such as international, fuel,
or online purchases. *Standard text messaging and data rates may apply.
You agree not to attempt to log on to any Website and make purchases using your TCU Visa ® Platinum Rewards Credit Card from
any country under sanctions by the Office of Foreign Assets Control (OFAC). Information regarding which countries are under
sanctions may be obtained on the U.S. Department of the Treasury website. Any attempt to log on to these Websites and make
purchases from one of these countries may result in your access to your TCU Visa ® Platinum Rewards Credit Card being restricted
and/or terminated.
Rewards Program. You may earn a 1.5% Rebate (“Rewards”) on your Net Purchase Transactions, which is the amount of your
Purchase transactions for goods or services, less any purchase refunds. Rewards are not earned on Cash Advance or Balance
Transfer transactions. The accrued Rewards will be shown on your monthly billing statement and the Rewards will be credited to your
Account, annually, in October. Rewards may not be redeemed for cash or services and we may revoke your Rewards, at any time, if
you exceed your credit limit, become delinquent, are in default of your Agreement, or close your Account. We reserve the right to
amend this Rewards Program, at any time, upon notice.

Commissions. You understand and agree that we (or our affiliate) will earn commissions or fees on any insurance products and may
earn such fees on other services that you buy through us or our affiliate.
Security. Collateral (other than household goods or any dwelling) given as security under this Agreement or for any other loan you
may have with us will secure all amounts you owe us now and in the future if that status is reflected in the “Truth-in-Lending Disclosure.
Signature Requirement: You agree to sign the back of your credit card as soon as you receive it and any use of the card by the
borrower(s) or authorized user(s) indicates his/her consent to the terms of this agreement.
Change of Personal Information: You agree to notify us in writing immediately if you change your name, home, or mailing address,
or daytime telephone number.
Credit Information: You agree that we may re-examine and re-evaluate your creditworthiness at any time. You authorize us to obtain
from time to time information from others, such as stores and credit reporting agencies, concerning you and your credit accounts. You
also authorize us to respond from time to time to requests from others for credit or experience information about you and your Account.
Lost or Stolen Card or Unauthorized Use: You agree to notify us immediately if any card issued on your Account is ever lost or
stolen or used in a manner not authorized by you. You can notify us by calling the phone number on your billing statement. You also
agree to assist us in determining the facts and circumstances relating to any such unauthorized uses.
Liability for Unauthorized Use: You may be liable for the unauthorized use of any of your credit cards. You will not be liable for
unauthorized use that occurs after you notify us that any of your cards have been lost or stolen, or are being used without your
authorization. In the case of unauthorized use occurring before you notify us, you may be liable for up to $50.
Age Requirement: You must be 18 years of age to apply; applicants between the ages of 18 and 21 must have the independent
ability to make the required Minimum Monthly Payment, as described above; or has a signed agreement, by a cosigner, guarantor, or
joint applicant, who is at least 21 years old, to be either secondarily liable for the amounts due on this credit card account, and we
have determined that such cosigner, guarantor, or joint applicant has the independent ability to make the required Minimum Monthly
Payments.”
Joint and Several Liability: Each person who signed your Credit Card Application and each person who uses your Account will be
individually liable for all credit extended on the Account. All such persons will be liable as a group as well. This means that we can
collect from or sue any one of them without giving up any of our rights against the others. Upon receiving a request from any party to
your Account or receiving inconsistent instructions from different parties to your Account, we, at our sole option and without notice to
any other party, may cancel your Account or refuse any request with respect to your Account, including a request for credit.
Default: If you fail to comply with any of the terms or conditions of this Agreement or any other loan agreement you have with us or
anyone else, you will be in default. We will consider you to be in default if we determine that there has been a substantial adverse
effect (insolvency) on your ability to repay the debt incurred on this account, you become incapacitated, upon your death, or if you file
a bankruptcy petition or have one filed against you, or if we believe in good faith that you may not be able to perform your obligations
under this Agreement.
Our Rights Upon Your Default: If you are in default, we may at our option to the extent permitted by law do any of the following,
without notice:


We may terminate the credit card account and make all or any part of the amount owing by the terms of this Agreement






immediately due.
We may temporarily or permanently prohibit any additional advances on the Account.
We may temporarily reduce the Credit Limit.
We may make a claim for any and all insurance benefits or refunds that may be available on your default.
We may use any and all remedies we have under applicable law or any agreement securing this Agreement.

Except as otherwise required by law, by choosing a remedy we do not give up our right to use another remedy. We do not waive a
default if we choose not to use a remedy. By electing not to use any remedy, we do not waive our right to later consider the event a
default and to use any remedies if the default continues or occurs again.
Cross Default: You understand and agree that any breach or default of the terms and conditions of this Agreement shall also be
deemed to be a default of any and all other loan, line of credit account and credit card agreements you now have with us or obtain in
the future with us. Further, you understand and agree that your breach or default of the terms and conditions of any other loan, line of
credit account or credit card agreements you now have with us or obtain in the future with us shall be deemed to be a default of the
terms and conditions of this Agreement. This “Cross Default” agreement shall not apply to any loan, line of credit account or credit
card agreement by real property or where otherwise prohibited by Federal or State Law or Regulation.
Collection Costs. In the event collection efforts are required to obtain payment on this Account, to the extent permitted by law, you
agree to pay all court costs, private process serve fees, investigation fees or other costs incurred in collection and reasonable
attorneys’ fees incurred in the course of collecting any amounts owed under this Agreement.
Closure of Account: Even if you are not in default, we may close your Account or suspend your credit privileges at any time without
prior notice. If your Account is closed, you are obligated to pay the outstanding balance, any interest (finance) charges, and all other
charges, fees, and costs that are or become due on your Account. You must also return your credit card to us if asked to do so.
Change of Terms: We may change the terms of this Agreement by mailing or delivering to you written notice of the changes as
prescribed by the Federal Truth-in-Lending Act. To the extent permitted by law, the right to change the terms of this Agreement
includes, but is not limited to, the right to change the periodic rate. We may also add new terms, conditions, services, or features to
your Account. To the extent required by law, we will notify you in advance of any change in terms by mailing a notice to you at your
address as shown on our records.
Merchants and Your Card: We are not responsible or liable for anyone's refusal to honor your card or for anyone's retention of your
card.
Payments Marked "Paid in Full": We may accept checks, money orders, or other types of payment marked "payment in full" or using
other language to indicate full satisfaction of indebtedness, without our being bound by such language or waiving any rights under this
Agreement. Full satisfaction of indebtedness shall be accepted by us only in a written agreement, signed by one of our authorized
employees.
Foreign Currency Transaction: You agree that we may convert any charge or credit made to your Account in currency other than
U.S. dollars into U.S. dollars following our own procedures for determining the exchange rate, and charge or credit your Account for
the U.S. dollar amount. The amount determined by following our own procedures may be the same as, greater than, or less than the
amount that would be calculated by conversion on the date when the transaction was actually initiated.
Illegal Transactions: You warrant and agree that the Credit Card, other access device or any related account will not be used to
make or facilitate any illegal transactions(s) as determined by applicable law: and that any such use, including any such unauthorized
use, will constitute an event of default under this Agreement. We may decline to accept, process or pay any transaction that we
believe to be illegal or unenforceable (regarding your obligation to pay us) under applicable law, including but not limited to any
transaction involving or relating to any gambling activity. Certain federal and or state laws such as the Unlawful Internet Gambling
Enforcement Act or Third Party Service Providers’ Rules may limit or prohibit certain transactions such as (but not limited to) those
coded as possible gambling transactions. Such prohibition or limitations may affect some otherwise proper or allowable transactions
such as debits, charges or other transactions at or relating to a hotel-casino. You further understand and agree that such limitations
are not in our control and we will have no liability for the enforcement of this provision.
ATM Transactions. Withdrawals at ATM machines may be made using your Credit Card and personal identification number. Cash
withdrawals may not exceed $500.00 per calendar day. Except as otherwise provided in this Agreement, advances through ATM
access will be treated as a Cash Advance. Owners of ATMs that we do not own may charge fees in addition to any fees described in
this Agreement. This is not a fee charged by Teachers Credit Union; however, any such fee will be added to your Account. The party
charging the fee is required to provide appropriate disclosures to you with regard to any such fees.
Waivers: We may waive or decline to enforce any of our rights under this Agreement without affecting any of our other rights. To the
extent not prohibited by law and except for any required notice of right to cure for the failure to make a payment, you waive protest,
presentment for payment, demand, notice of acceleration, notice of intent to accelerate and notice of dishonor.
Termination. Either you or we may, unless prohibited by law, terminate this Account at any time by giving written notice to the other.
Termination by any one of you terminates the Account for all of you. Termination will not affect your obligation to repay advances
made prior to the termination, in accordance with the terms of this Agreement.
Financial Reports and Additional Documents. You will provide facts to update information contained in your original Credit Card
Application or other information related to you, at our request. You also agree that we may, from time to time, as we deem necessary,
make inquires pertaining to your employment, credit standing and financial responsibility in accordance with applicable laws and
regulations.
Governing Law: This Agreement and your Account, as well as our rights and duties and your rights and duties regarding this
Agreement and your Account, will be governed by and interpreted in accordance with federal law to the fullest extent possible and to
the extent federal law does not apply, in accordance with Indiana law, regardless of where you live and use your Account, or as may
be required by the Military Lending Act. This Agreement is made in Indiana. All credit will be extended from Indiana.
Severability: Should any provision of this Credit Card Agreement be determined to be invalid or unenforceable, that determination
will not affect the validity or enforceability of any other provision.
Liability for Unauthorized Use. If you notice the loss or theft of your credit card or a possible unauthorized use of your
card, you should write to us immediately at: Teachers Credit Union, Customer Service, P.O. Box 31112, Tampa, FL 336313112, or call us at 877-271-8328.

Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Customer Service, P. O. Box 31112, Tampa, FL 33631
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest (finance charges) on that
amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest (finance charges) or other fees related to that
amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest (finance
charges) and fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Teachers Credit Union, Customer Service, P.O. Box 31112, Tampa, FL 33631-3112
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
This Disclosure Current as of January 15, 2019 TCU Form #PR 01152019

